Implementation of the Current
Guidance on Economic Analysis in
SEC Rulemakings




                               June 6, 2013
                               Report No. 516
We appreciate the courtesy and cooperation that you and your staff extended to
our staff during this audit.

Attachment

cc:   Erica Y. Williams, Deputy Chief of Staff, Office of the Chair
      Elisse B. Walter, Commissioner
      Luis A. Aguilar, Commissioner
      Troy A. Paredes, Commissioner
      Daniel M. Gallagher, Commissioner
      Craig Lewis, Director and Chief Economist, Division of Risk,
       Strategy, and Financial Innovation
      Anne K. Small, General Counsel, Office of the General Counsel
      John Ramsay, Acting Director, Division of Trading and Markets
      Lona Nallengara, Acting Director, Division of Corporation Finance
      Norman Champ, Director, Division of Investment Management
      Jeff Heslop, Chief Operating Officer, Office of Chief of Operations
      Lacey M. Dingman, Director, Office of Human Resources
      Michael A. Conley, Deputy General Counsel, Office of the General
       Counsel
      Kathleen Hanley, Deputy Director and Deputy Chief Economist, Division of
       Risk, Strategy and Financial Innovation
      Jennifer Marietta-Westberg, Deputy Director and Deputy Chief Economist,
        Division of Risk, Strategy and Financial Innovation
      James R. Burns, Deputy Director, Division of Trading and Markets
      Paula Dubberly, Deputy Director, Office of Policy and Capital Markets,
       Division of Corporation Finance
      Douglas Scheidt, Chief Counsel, Division of Investment Management
Implementation of the Current Guidance on
Economic Analysis in SEC Rulemakings

                        Executive Summary
Background. On July 24, 2012, the U.S. Securities and Exchange
Commission’s (SEC or Commission) Office of Inspector General (OIG) received
a letter from the Chairman of the U.S. House of Representatives Committee on
Oversight and Government Reform (House Oversight Committee) and the
Chairman of the U.S. House of Representative’s Subcommittee on TARP
(Troubled Assets Relief Program), Financial Services and Bailouts of Public and
Private Programs (Subcommittee on TARP) requesting that the OIG evaluate the
SEC’s implementation of the Current Guidance on Economic Analysis in SEC
Rulemakings (Current Guidance), issued on March 16, 2012. The letter
requested that we assess and report on the degree to which the SEC has
incorporated the principles and policies of the Current Guidance into economic
analyses supporting proposed and final Commission rules. The OIG was also
asked to evaluate the degree to which the SEC has ensured that the principles
and policies of the Current Guidance have been incorporated into the economic
analyses of rulemakings of the Financial Industry Regulatory Authority, other self-
regulatory organizations under the Commission's jurisdiction, and the Public
Company Accounting Oversight Board.

The Current Guidance, dated March 16, 2012, is an internal memorandum that
the Division of Risk, Strategy, and Financial Innovation (RSFI) and the Office of
the General Counsel (OGC) developed. RSFI and OGC sent the memorandum
by email to SEC staff in the rulewriting divisions and offices on that same date.
The Current Guidance is based on and references recent court decisions, reports
from the SEC OIG and the Government Accountability Office (GAO), and
Congressional inquiries that have raised questions about or recommended
improvements (or both) to the Commission’s economic analysis in rulemaking.
The Current Guidance, in Sections A and B, contains four substantive
requirements and one process requirement.

The SEC derives its rulemaking authority from Federal securities laws. The
Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank Act)
and the Jumpstart Our Business Startups Act gave the SEC additional
rulemaking authority and required the SEC to adopt specific rules. Rulemaking
at the SEC has three stages: pre-proposal stage, proposal stage, and adopting
stage.




Implementation of Current Guidance on Economic Analysis                June 6, 2013
Report No. 516
                                         Page i
Congressional Request. On December 21, 2012, the Interim Inspector General
sent letters to the Chairman of the House Oversight Committee and the
Chairman of the Subcommittee on TARP outlining the OIG’s approach for
responding to their request. The OIG’s letters stated that it would:

       •   conduct “an audit to confirm that procedures have been
           established and are being used in accordance with the Current
           Guidance and that the Current Guidance incorporates
           recommendations offered by others on rulemaking [Phase 1];” and

       •   direct “an experienced contractor with expertise in economic
           analysis, the securities industry, and SEC operations to perform
           the more extensive rulemaking analyses [Phase 2].”

This audit report covers Phase 1 of the OIG’s response to the Congressional
request.

Objectives. The objectives of the audit were to determine whether:

       •   the SEC has established and implemented procedures for a
           methodical economic analysis process in accordance with its
           Current Guidance;

       •   the SEC developed and uses procedures to improve the
           economic analysis process such as hiring additional economists
           and implementing a systematic review process; and

       •   the Current Guidance incorporates the SEC OIG’s and other
           commenters’ recommendations issued to the SEC on economic
           analysis.

Results. The OIG found that the Commission has used the Current Guidance
since its issuance in March 2012 to develop the economic analyses for
rulemakings. However, the SEC has not issued written operating procedures
implementing the Current Guidance. Not having documented operating
procedures poses a risk that the SEC may inconsistently apply the Current
Guidance’s requirements throughout the rulemaking process.

Further, the OIG found that the Commission has taken steps to improve its
process for economic analysis by: (1) requiring RSFI economists to be involved
in the three stages of the rulemaking process; (2) hiring economists with financial
industry knowledge; and (3) formalizing the Chief Economist’s review and
concurrence process.

Finally, we found that the Commission incorporated recommendations it received
from the SEC OIG and other commenters into its Current Guidance. Specifically,
Implementation of Current Guidance on Economic Analysis                 June 6, 2013
Report No. 516
                                         Page ii
the SEC addressed in the Current Guidance: (1) recommendations from the SEC
OIG followup review of Dodd-Frank rulemaking; (2) a GAO report on Dodd-Frank
rulemaking; and (3) a U.S. Court of Appeals opinion that vacated an SEC rule
about proxy access.

Summary of Recommendation. This report contains one recommendation
designed to ensure that the SEC develops written operating procedures for
economic analysis to implement the requirements in the Current Guidance.

Management’s Response to the Report’s Recommendation. The OIG
provided the Chairman’s Office with the formal draft report on May 24, 2013. The
Chairman’s Office concurred with the recommendation in this report. The OIG
considers the report recommendation resolved. However, the recommendation
will remain open until documentation showing the recommendation has been fully
implemented is provided to the OIG. The Chairman’s Office’s response to the
recommendation and OIG’s analysis of that response is presented after the
recommendation in the body of this report.




Implementation of Current Guidance on Economic Analysis              June 6, 2013
Report No. 516
                                         Page iii
TABLE OF CONTENTS
Executive Summary ....................................................................................................... i

Table of Contents ........................................................................................................ iv

Background and Objectives ................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 6

Findings and Recommendation .......................................................................... 7
     Finding 1: The Commission Has Used the Current Guidance in its
     Rulemakings, but Does Not Have Documented Procedures Implementing
     the Current Guidance ....................................................................................... 7
                  Recommendation 1 ...................................................................... 9

         Finding 2: The SEC Hired Additional Economists and Formalized the
         Chief Economist’s Concurrence Process for Economic Analysis ....................... 9

         Finding 3: The Current Guidance Includes Recommendations from the
         SEC OIG and Other Commenters .................................................................... 16

Appendices
    Appendix I: Abbreviations................................................................................ 20
    Appendix II: Scope and Methodology .............................................................. 21
    Appendix III: Criteria ........................................................................................ 25
    Appendix IV: Recommendation ....................................................................... 27
    Appendix V: Management Comments............................................................. 28

Tables
     Table 1: RSFI Staffing Levels.......................................................................... 11
     Table 2: Incorporation of SEC OIG Recommendations in the Current
     Guidance ......................................................................................................... 16
     Table 3: Incorporation of U.S. Court of Appeals Opinion in the Current
     Guidance ......................................................................................................... 18
     Table 4: Rules the OIG Reviewed ................................................................... 23

Figure
     Figure 1: The SEC’s Process for Economic Analysis in Rulemakings .............. 5




Implementation of Current Guidance on Economic Analysis                                              June 6, 2013
Report No. 516
                                                     Page iv
                   Background and Objectives

Background
Congressional Request

On July 24, 2012, the U.S. Securities and Exchange Commission’s (SEC or
Commission) Office of Inspector General (OIG) received a letter from the
Chairman of the U.S. House of Representatives Committee on Oversight and
Government Reform (House Oversight Committee) and the Chairman of the U.S.
House of Representative’s Subcommittee on TARP (Troubled Assets Relief
Program), Financial Services and Bailouts of Public and Private Programs
(Subcommittee on TARP) requesting that the OIG evaluate the SEC’s
implementation of the Current Guidance on Economic Analysis in SEC
Rulemakings (Current Guidance), issued on March 16, 2012. The letter
requested that we assess and report on the degree to which the SEC has
incorporated the principles and policies of the Current Guidance into economic
analyses supporting proposed and final Commission rules. The OIG was also
asked to evaluate the degree to which the SEC has ensured that the principles
and policies of the Current Guidance have been incorporated into the economic
analyses of rulemakings of the Financial Industry Regulatory Authority, other self-
regulatory organizations under the Commission's jurisdiction, and the Public
Company Accounting Oversight Board.

Interim Inspector General’s Response

On December 21, 2012, the Interim Inspector General sent letters to the
Chairman of the House Oversight Committee and the Chairman of the
Subcommittee on TARP outlining the OIG’s approach for responding to their
request. The OIG’s letters 1 stated that it would:

        •   conduct “an audit to confirm that procedures have been
            established and are being used in accordance with the Current
            Guidance and that the Current Guidance incorporates
            recommendations offered by others on rulemaking [Phase 1];” and

        •   direct “an experienced contractor with expertise in economic
            analysis, the securities industry, and the SEC operations to
            perform more extensive rulemaking analyses [Phase 2].”


1
 Jon T. Rymer, Interim SEC Inspector General, letters to Darrell Issa, Chairman, House Committee on
Oversight and Government Reform (December 21, 2012), and to Patrick McHenry, Chairman, House
Subcommittee on TARP, Financial Services and Bailouts of Public and Private Programs (December 21,
2012).
Implementation of Current Guidance on Economic Analysis                                  June 6, 2013
Report No. 516
                                              Page 1
This audit report covers Phase 1 of the OIG’s response to the Congressional
request.

Current Guidance. The Current Guidance, dated March 16, 2012, is an internal
memorandum that the Division of Risk, Strategy, and Financial Innovation (RSFI)
and the Office of the General Counsel (OGC) developed. RSFI and OGC sent
the memorandum by email to SEC staff in the rulewriting divisions and offices on
that same date. The Current Guidance is based on and references recent court
decisions, reports of the SEC OIG and the Government Accountability Office
(GAO), and Congressional inquiries that have raised questions about or
recommended improvements (or both) to the Commission’s economic analysis in
rulemaking. The Current Guidance, in Sections A and B, contains four
substantive requirements 2 and one process requirement.

Section A of the Current Guidance discusses four substantive requirements to be
used when conducting economic analysis in SEC rulemaking. Those
requirements are to:

       1. clearly identify the justification for the proposed rule;

       2. define the baseline 3 against which to measure the proposed rule’s
          economic impact;

       3. identify and discuss reasonable alternatives to the proposed rule; and

       4. analyze the economic consequences of the proposed rule and the
          principal regulatory alternatives.

Section B of the Current Guidance covers the process requirement for “enhanced
integration of economic analysis into the rulemaking process and rule releases.” 4

Rulemaking at the SEC. The SEC derives its rulemaking authority from Federal
securities laws. 5 The Dodd-Frank Wall Street Reform and Consumer Protection
Act (Dodd-Frank Act)6 and the Jumpstart Our Business Startups Act 7 gave the


2
    SEC, Current Guidance on Economic Analysis in SEC Rulemakings (March 16, 2012), p. 4.
3
  The Commission defines a baseline as the best assessment of how the world would look in the absence of
the proposed action.
4
    Id. at p. 15.
5
  These include, among others, the Securities Act of 1933, the Securities Exchange Act of 1934, the Trust
Indenture Act of 1939, the Investment Company Act of 1940, and the Investment Advisers Act of 1940.
6
    Dodd-Frank Wall Street Reform and Consumer Protection Act, July 21, 2010.
7
    Jumpstart Our Business Startups Act, April 5, 2012.
Implementation of Current Guidance on Economic Analysis                                      June 6, 2013
Report No. 516
                                                   Page 2
SEC additional rulemaking authority and required the SEC to adopt specific
rules. Rulemaking at the SEC has three stages:

      •    Pre-Proposal Stage. This stage involves internal meetings among
           the rulewriting divisions, OGC, RSFI, and other SEC divisions and
           offices to begin to consider the scope and terms of a possible
           rulemaking and develop a plan of action. The SEC may issue a
           concept release 8 if the Commission decides to seek public input
           before releasing a proposed rule.

      •    Proposing Stage. When approved by the Commission, a proposed
           rule is published for public notice and comment for a specified
           period of time, typically between 30 and 60 days. Proposing
           releases usually contain the text of the proposed new or amended
           rule, a discussion of the issue or problem the proposal is designed
           to address, and a detailed economic analysis.

      •    Adopting Stage. When approved by the Commission, a new rule or
           rule amendment becomes part of the official rules that govern the
           securities industry. Adopting releases reflect the SEC’s
           consideration of public comments and generally include a detailed
           economic analysis. 9

The rulemaking process begins when the rulewriting division’s staff formulates a
rulemaking recommendation on the basis of either the Commission’s discretion
or a Congressional mandate. The rulewriting divisions, which include the
Division of Corporation Finance (CF), the Division of Investment Management
(IM), and the Division of Trading and Markets (TM), have the primary
responsibility for rulemaking. These divisions assign staff to the rulemaking and
reach out to other SEC divisions and offices to ensure that relevant staffs are
involved.

The rulewriting division that is responsible for the rulemaking prepares a term
sheet that briefly describes the proposed rule and includes a preliminary
economic analysis of the proposal that RSFI prepares. By this stage in the
rulemaking process, RSFI economists have become an integral part of the
rulemaking teams. The SEC uses a term sheet to facilitate discussion about the
proposed rule. The term sheet is circulated among the Commissioners for their
review and input.




8
  A concept release typically outlines the topic of concern, identifies different potential approaches, and
raises a series of questions inviting public comment on the matter. The Commission considers the public’s
feedback as it decides which approach, if any, is appropriate.
9
    See Rulemaking, How it Works, http://www.sec.gov/answers/rulemaking.htm.
Implementation of Current Guidance on Economic Analysis                                       June 6, 2013
Report No. 516
                                                 Page 3
The responsible rulewriting division drafts a proposing or adopting release
(depending on the stage of the rulemaking) and coordinates with OGC and RSFI
representatives about their input to the draft. The rulewriting division and RSFI
work together to prepare the economic analysis included in the release. At
various stages during the drafting process, drafts of the release are circulated to
the Commissioners for their review and input. The SEC staff may revise the draft
rule and the release on the basis of comments from the Commissioners.

OGC reviews the proposed rulemaking to verify that the SEC has legal authority
to adopt the rule and the release complies with the Administrative Procedure
Act 10 and other Federal administrative law requirements. 11 OGC also looks at
the entire rule to determine whether it is consistent with applicable laws and other
requirements. RSFI is responsible for the content of the economic analysis in the
rulemaking release and the Chief Economist must concur with the economic
analysis. Once a draft of the proposing or adopting release is completed, the
responsible rulewriting division formally submits to the Commission, through the
Office of the Secretary (OS), an action memorandum recommending
Commission approval and issuance of the release. OS ensures that the rule
complies with the formatting requirements of the Office of the Federal Register
and coordinates the Commissioners’ voting on the rule. If a majority of the
Commissioners vote to issue the release, it is posted on the SEC’s public
website and published in the Federal Register. In the case of an adopting
release, the final rule is also published in the Code of Federal Regulations.

Economic Analysis in the SEC’s Rulemaking Process. The Current
Guidance specifies that economic analysis at the SEC includes several important
evaluations and high-level controls such as defining a baseline, quantifying costs
and benefits where possible, and RSFI Chief Economist concurring with a rule’s
economic analysis. Figure 1 illustrates the SEC’s process for economic analysis
in the three rulemaking stages.




10
  The Administrative Procedure Act (APA) of 1946, 5 U.S.C. §§ 501 et. seq., provides procedural standards
that Federal administrative agencies must follow. With respect to rulemaking, the APA requires agencies to
give the public advance notice of the contents of a proposed rule and to offer members of the public an
opportunity to express their views on the proposed rule. 5 U.S.C. § 553. The APA also provides that courts
may set aside any rule found to be “arbitrary, capricious, an abuse of discretion, or otherwise not in
accordance with the law.” 5 U.S.C. § 706.
11
  These include the Paperwork Reduction Act, the Regulatory Flexibility Act, and the Small Business
Regulatory Enforcement Fairness Act.
Implementation of Current Guidance on Economic Analysis                                     June 6, 2013
Report No. 516
                                                Page 4
Figure 1: The SEC’s Process for Economic Analysis in Rulemakings




Source: OIG generated




Implementation of Current Guidance on Economic Analysis      June 6, 2013
Report No. 516
                                         Page 5
Objectives
The objectives of the audit were to determine whether:

   •   the SEC has established and implemented procedures for a methodical
       economic analysis process in accordance with its Current Guidance.

   •   the SEC developed and uses procedures to improve the economic
       analysis process such as hiring additional economists and implementing a
       systematic review process.

   •   the Current Guidance incorporates the SEC OIG’s and other commenters’
       recommendations issued to the SEC on economic analysis.




Implementation of Current Guidance on Economic Analysis             June 6, 2013
Report No. 516
                                         Page 6
                   Findings and Recommendation

Finding 1: The Commission Has Used the Current
Guidance in its Rulemakings, but Does Not Have
Documented Procedures Implementing the
Current Guidance
           The SEC has used the Current Guidance in its rulemakings,
           but it has not established and implemented written
           procedures for a methodical process for economic analysis
           in accordance with its Current Guidance.

Issuance of and Direction to Use Current Guidance
The SEC issued the Current Guidance in memorandum form on March 16, 2012.
The Current Guidance, which RSFI and OGC drafted with input from the
rulewriting divisions, consists of guidelines to use for developing high-quality
economic analyses that deliver the best available information about a rule’s likely
economic consequences. 12 In a June 11, 2012, letter to Congress, the former
SEC Chairman, Mary Schapiro, stated that she had instructed SEC directors in
the rulewriting divisions and offices to follow the Current Guidance. 13 Also, during
a staff meeting with the rulewriting division’s directors, the former Chairman
directed them to inform their staff to follow the Current Guidance. Further, RSFI’s
webpage, which is located on the Commission’s public website, states that “[t]he
Chairman has directed the staff to follow the Guidance in SEC rulemaking.” 14

Current Guidance Practices
We reviewed 9 of 23 rules issued between March 16, 2012, and November 30,
2012. On the basis of our review, we found that the Commission has used the
Current Guidance in its rulemaking practice. For example, we found that RSFI
economists were integral members of the rulewriting team and contributed to the
three stages of the rulemaking process. Additionally, RSFI economists drafted or
closely collaborated with the rulewriting divisions to prepare economic analyses in
SEC rulemakings.


12
     SEC, Current Guidance on Economic Analysis in SEC Rulemakings (March 16, 2012), p. 2.
13
  Letter from the former SEC Chairman, Mary Schapiro, to Chairman Patrick McHenry, Subcommittee on
TARP (June 11, 2012), p. 2.
14
     See http://www.sec.gov/divisions/riskfin/rsfi_guidance_econ_analy_secrulemaking.shtml.
Implementation of Current Guidance on Economic Analysis                                       June 6, 2013
Report No. 516
                                                   Page 7
During this audit, we did not analyze the quality and completeness of the
economic analyses in the rules. However, we evaluated in more detail the
economic analyses in SEC rulemakings in our concurrent review, Use of the
Current Guidance on Economic Analysis in SEC Rulemakings, Report No. 518
(Phase 2).

Lack of Documented Operating Procedures
The SEC has not issued written operating procedures implementing the Current
Guidance. In particular, TM and RSFI do not have written operating procedures
for implementing economic analysis. TM and RSFI staffs believe that there may
be tradeoffs in having documented operating procedures because they may result
in prescriptive requirements that are not feasible or appropriate for all rules.

We found that IM has draft written operating procedures and CF has a rulemaking
checklist, but neither division’s documents have been updated to reflect the
Current Guidance. 15 Also, we reviewed OGC’s SEC Compliance Handbook
(October 1999) 16 and found that it has not been revised since it was issued and
therefore does not incorporate the Current Guidance, although OGC staff advised
us that the Current Guidance is provided as a supplement to requests for the
Compliance Handbook.

The Office of Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Control, requires management to establish and maintain
internal control to achieve effective and efficient operations, reliable financial
reporting, and compliance with applicable laws and regulations under five
standards. One of the standards is control activities, which include “policies,
procedures and mechanisms in place to help ensure that agency objectives are
met.” 17

Not having documented operating procedures poses a risk that the SEC may
inconsistently apply the requirements of the Current Guidance throughout the
rulemaking process. Written policies and procedures assist management in
ensuring its continuity of operations and help in preventing loss of institutional
knowledge about the organization’s processes.

Conclusion
The SEC issued the Current Guidance to improve the process for economic
analysis in rulemakings. Our audit found that the Commission has used the

15
     CF staff stated that they plan to update its checklist “in the near future.”
16
  The Handbook provides guidance on the SEC’s rulemaking process, its process for economic analysis, and
laws and regulations governing the rulemaking process.
17
     OMB Circular A-123, Management’s Responsibility for Internal Control (December 21, 2004), pgs. 7-8.
Implementation of Current Guidance on Economic Analysis                                      June 6, 2013
Report No. 516
                                                        Page 8
Current Guidance in its rulemaking practice. However, we found that the
rulewriting divisions, RSFI, and OGC do not have written procedures for
implementing the Current Guidance’s substantive and process requirements.
Having written operating procedures would help ensure staff in the rulewriting
divisions, RSFI, and OGC consistently apply the Current Guidance when
undertaking rulemaking at the SEC.

       Recommendation 1:

       The Chairman’s Office, in coordination with the Office of the General
       Counsel (OGC) and the Division of Risk, Strategy, and Financial Innovation
       (RSFI), should issue–to SEC rulewriting divisions, RSFI, and OGC–written
       operating procedures for economic analysis that implement the Current
       Guidance on Economic Analysis in SEC Rulemakings.

       Management Comments. The Chairman’s Office concurred with this
       recommendation. See Appendix V for management’s full comments.

       OIG Analysis. We are pleased the Chairman’s Office concurred with our
       recommendation. The OIG considers this recommendation resolved.
       However, this recommendation will remain open until documentation
       showing the recommendation has been fully implemented is provided to
       the OIG.


Finding 2: The SEC Hired Additional Economists
and Formalized the Chief Economist’s
Concurrence Process for Economic Analysis
       The Commission has taken steps to improve the process for
       economic analysis by requiring the participation of RSFI
       economists in the three stages of the rulemaking process,
       hiring economists with financial industry knowledge, and
       formalizing the Chief Economist’s review and concurrence
       process.

Overview
During our audit, we found that the SEC has taken certain actions to improve its
process for economic analysis. These actions include requiring RSFI’s
involvement throughout the rulemaking stages, hiring economists with financial
industry knowledge for rulemaking, and formalizing the Chief Economist’s process
for concurring with economic analyses. The Commission established RSFI as a
division in September 2009. Three RSFI offices facilitate the division’s
collaboration with the SEC’s rulewriting divisions. An assistant director, who is an
Implementation of Current Guidance on Economic Analysis                 June 6, 2013
Report No. 516
                                         Page 9
economist, leads each of the offices that is involved in rulemakings. Those offices
are the Office of Corporate Finance, Office of Markets, and Office of Investments
and Intermediaries.

RSFI has established designated points-of-contact for each rulemaking division.
For economic analysis, the Office of Corporate Finance supports CF; the Office of
Markets supports TM’s Office of Market Supervision; and the Office of
Investments and Intermediaries supports IM and other offices in TM.

When a rulemaking is initiated, the rulewriting division generally contacts the RSFI
assistant director who supports the relevant division. The assistant director
assigns one or more economists to work with the rulewriting divisions on the rule.

RSFI’s Involvement in the Process for Economic Analysis
To assess whether RSFI economists were involved in the economic analysis
process, OIG reviewed:

   •   emails between rulewriting divisions and RSFI;

   •   comments RSFI made on draft economic analyses and term
       sheets; and

   •   internal memoranda that RSFI prepared for rules.

In addition, we interviewed staff in the rulewriting divisions and RSFI to discuss
their coordination process and verified RSFI’s involvement throughout the
rulemaking process. RSFI staff asserted that they often conduct initial research
on a rule and review existing studies or data that could be helpful to a particular
rule. RSFI also attempts to replicate or improve data or findings in studies
pertaining to each specific rule.

Overall, we found that RSFI coordinates with rulewriting divisions to discuss the
purpose of the rule, costs and benefits of the rule, what the Commission should
discuss in the economic analysis, and whether and how the Commission can
quantify benefits and costs.

On the basis of interviews and our review and analyses of documentation, we
determined that RSFI is involved in all three stages (pre-proposal, proposing, and
adopting) of the rulemaking process.




Implementation of Current Guidance on Economic Analysis                  June 6, 2013
Report No. 516
                                         Page 10
SEC’s Hiring of Additional Economists for Rulemaking
Since the passage of the Dodd-Frank Act, the SEC has hired additional
economists. Prior to the passage of the Dodd-Frank Act, 18 RSFI had 19 Doctor of
Philosophy (Ph.D.) economists, one non-Ph.D. economist, and two research
associates working on rulemakings. As of March 6, 2013, RSFI had 35 Ph.D.
economists, one non-Ph.D. economist, and six research associates who work on
rulemakings.

RSFI’s staffing levels for rulemakings prior to the Dodd-Frank Act and after the
Current Guidance are illustrated in Table 1 below:

                  Table 1: RSFI Staffing Levels
                                                       Prior to Dodd-
                           Staff Category                                   March 2013
                                                         Frank Act
                    Full-time SEC Economist                   18                 29
                    with Ph.D.
                    Full-time SEC Economist                    0                  1
                    without Ph.D.
                        19
                    IPA Economist with Ph.D.                   1                  6
                    IPA Economist without                      1                  0
                    Ph.D.
                    Total Number of RSFI                      20                 36
                    Economists
                    Full-time SEC                              2                  6
                    Research Associates
                    Total Number of RSFI                      22                 42
                    Rulemaking Staff
                  Source: Office of Human Resources and RSFI’s staffing data.

SEC’s Plan for Hiring Additional Economists. On June 11, 2012, in a letter to
Congress, former SEC Chairman Mary Schapiro informed Congress that RSFI
would hire, in the near future, 16 economists with Ph.D.’s and that the
Commission had requested 20 additional economist positions as part of its fiscal
year 2013 budget. The former SEC Chairman further stated, “The potential need
for additional economists beyond this will be analyzed on a going forward basis,




18
  The Dodd-Frank Act was enacted on July 21, 2010. According to former SEC Chairman Mary Schapiro’s
Testimony on Continued Oversight of the Implementation of the Wall Street Reform Act before the United
States Senate Committee on Banking, Housing, and Urban Affairs on December 6, 2011, the Dodd-Frank Act
contains 90 provisions that require the SEC to engage in rulemakings.

19
   The IPA (Intergovernmental Personnel Act) provides, through a Mobility Program, for the temporary
assignment to the Federal Government of personnel from state and local governments, colleges and
universities, Indian tribal governments, Federally funded research and development centers, and other
eligible organizations. The program helps Federal agencies meet their needs for hard-to-fill positions through
the temporary assignment of skilled personnel from those entities.

Implementation of Current Guidance on Economic Analysis                                       June 6, 2013
Report No. 516
                                                 Page 11
and our ability to hire economists to fill these positions in the future will depend on
the resources provided by Congress.” 20

In 2012, RSFI hired 16 Ph.D. economists. RSFI informed us that due to the
continuing resolution, the SEC’s fiscal year 2013 staffing requests, including
RSFI’s requests, were not approved. However, the SEC’s Budget Governance
Committee 21 approved RSFI’s request to hire, from external sources, nine
additional financial economists for fiscal year 2013.

OIG’s Review of RSFI Economists Hired. To determine how the SEC
addressed RSFI’s need for economists, we obtained a list that contained the
names of 14 economists that the SEC hired from March through November 2012
to evaluate the economic analyses for the SEC’s rulemaking initiatives. We
obtained and reviewed the job descriptions, vacancy announcements, and
resumes for the 14 RSFI economists. In our review, we found that the economists
hired during that period had the financial industry knowledge consistent with the
vacancy announcements. 22

Chief Economist’s Involvement and Concurrence
Overview of Chief Economist’s Involvement in Economic Analysis. In June
2012, the Chief Economist’s process for concurring with economic analyses was
formalized. The Chief Economist is actively involved in the three stages of
rulemaking and concurs with the economic analysis in the proposing and adopting
stages. As Commission staff begins drafting the rule, the Chief Economist
discusses, with RSFI staff, major economic issues, RSFI’s strategy, and data
analysis required for the rule. Throughout the rulemaking process, RSFI staff
members meet with the Chief Economist to discuss the progress and status of the
rules and information pertinent to the economic analysis. Before the Chief
Economist concurs with the economic analysis, he meets with RSFI staff working
on the rule, discusses his observations, and provides additional guidance as
necessary. When the draft of the rule is ready for circulation to the
Commissioners, the Chief Economist determines whether the economic analysis
for a rule is satisfactory. RSFI then communicates the Chief Economist’s
concurrence, and the rulewriting division includes that concurrence in the action
memorandum circulated to the Commissioners. 23


20
  Letter from the former SEC Chairman, Mary Schapiro, to Chairman Patrick McHenry, Subcommittee on
TARP (June 11, 2012), p. 3.
21
     The SEC established the Budget Governance Committee in 2011 to ensure a strategic staffing approach.
22
   The hired economists’ resumes or supporting documents indicated financial industry knowledge in the
following areas: corporate finance, investment, credit risk, capital markets, etc. However, we did not verify
the assertions made by the applicants or the merits of the vacancy announcements.
23
   The Chief Economist concurred in all of the economic analyses we reviewed. RSFI stated that the
rulewriting divisions should not formally circulate a rule to the Commissioners if the Chief Economist does not
Implementation of Current Guidance on Economic Analysis                                         June 6, 2013
Report No. 516
                                                  Page 12
Chief Economist’s Involvement in the Different Rulemaking Stages. The
Chairman’s office sets priorities for rulemaking and informs rulewriting divisions,
RSFI, and OGC of those priorities. On the basis of our audit objectives, we
outlined the Chief Economist’s involvement in each stage of rulemaking as
discussed below and illustrated previously in Figure 1.

Pre-Proposal Stage. Before the responsible division begins drafting a rule in the
pre-proposal stage, staff in the rulewriting division meets with RSFI staff to
provide background on the prospective rule and to get initial input from the RSFI
economist. The Chief Economist meets with RSFI staff to discuss major
economic issues, RSFI’s strategy, and data analysis required for the rule. If the
rule is complex, the Chief Economist also discusses with the division director
economic analysis issues that are relevant to the rules. According to RSFI, its
economists participate in the rulemaking division’s preparation of a term sheet,
which contains a high-level outline of an economic analysis.

Proposing Stage. As the rulewriting division drafts the proposed rule, RSFI staff
coordinate with the rulewriting division’s staff and assist in preparing the economic
analysis. RSFI staff inform the Chief Economist of the progress of the rules and
discuss information pertinent to the economic analysis. RSFI staff also meets
with rulewriting divisions and communicates with them by phone or email during
the rulemaking process. Each week the Chief Economist meets with the RSFI
assistant directors to discuss the status of rulemakings and the rulemaking
division’s activities. RSFI staff provide the Chief Economist with a written
summary that discusses the components of the economic analysis (baseline,
alternatives, etc.) for the rulemakings.

Before the Chief Economist concurs with the economic analysis, he meets with
the RSFI staff working on the rule, discusses his observations, and provides
additional guidance as necessary. RSFI staff incorporate the Chief Economist’s
changes into the economic analysis and send it to the rulewriting divisions with
the changes highlighted. The assistant director and economist(s) who are
assigned to the rule ensure that the Chief Economist’s changes are included in
the draft rule release. This is part of the process for obtaining the Chief
Economist’s concurrence with the rule’s economic analysis.

Additionally, the Chief Economist meets with division directors to discuss
significant issues on rules. He meets with the Commissioners regularly to
maintain awareness of current issues, discusses the Commissioners’ general
concerns about economic issues, and explains the rationale for a specific
economic analysis.

During his review of the rules, the Chief Economist focuses on whether the
economic ideas presented are sound and whether the SEC framed the economic

concur with the economic analysis. RSFI staff informed the OIG that they are not aware of any instance
where the Chief Economist did not concur with the economic analysis.
Implementation of Current Guidance on Economic Analysis                                     June 6, 2013
Report No. 516
                                                Page 13
ideas logically. He also verifies that the economic analysis complies with the
Current Guidance requirements of having a consistent baseline, quantifying
benefits and costs where appropriate, discussing alternatives to the rule, etc.

The rulewriting division determines when to submit its action memorandum to the
Commission recommending action on a proposed rule. The rulewriting division is
responsible for obtaining, and documenting in the action memorandum, the
concurrence of the Chief Economist in the economic analysis for that proposing
release. Once the Chief Economist determines that the economic analysis for a
proposing release is satisfactory, RSFI communicates the Chief Economist’s
concurrence to the relevant staff in the rulewriting division. RSFI staff stated that
the rulewriting divisions should not formally circulate the proposing release to the
Commissioners if the Chief Economist does not concur with the economic
analysis. RSFI staff told us that they are not aware of any instances in which the
Chief Economist has not concurred with a rule’s economic analysis.

Adopting Stage. The rulewriting divisions, in coordination with RSFI, revise and
refine the economic analysis on the basis of comments received on the proposed
rule and additional analyses that they determines are necessary. The Chief
Economist reviews the adopting rule and indicates whether he concurs with the
economic analysis.

RSFI stated the rulewriting divisions should not formally circulate the adopting
release to the Commissioners if the Chief Economist does not concur with the
economic analysis.

Concurrence Process Before the Current Guidance. Before issuance of the
Current Guidance, the Chief Economist had an informal process for reviewing and
concurring with economic analyses for rules. He communicated his agreement or
disagreement with the economic analysis of the proposed rulemaking either
verbally or in an email to division directors or rulewriting divisions. Below is an
example of language in an action memorandum that the SEC used prior to
issuance of the Current Guidance.

           The draft release includes an economic analysis. We consulted
           with the Office of the General Counsel and the Division of Risk,
           Strategy, and Financial Innovation concerning this analysis.

Concurrence Process After the Current Guidance. The RSFI Chief
Economist’s concurrence process was formalized as reflected in a June 2012
email. 24 The former SEC Chairman agreed with the process, which requires that
the rulewriting divisions obtain the Chief Economist’s formal concurrence on



24
     June 11, 2012 email between RSFI and the former SEC Chairman’s Office.

Implementation of Current Guidance on Economic Analysis                       June 6, 2013
Report No. 516
                                                Page 14
economic analyses for the proposing and adopting stages of rules. 25 The
concurrence process required the rulewriting divisions to use, in the action
memorandum, standard language that indicates the Chief Economist’s
concurrence with the economic analysis. 26 Below is an example of standard
language from an action memorandum after the Current Guidance.

           The Chief Economist concurs in the economic analysis contained in
           the attached draft release entitled “XXXX” and dated “XX XX,
           XXXX.” RSFI Staff will review all changes made to this draft
           release and notification will be provided to the Commission if those
           changes result in the Chief Economist no longer concurring in the
           economic analysis.

Conclusion
Since the issuance of the Current Guidance, the Commission has taken steps to
improve its procedures for economic analysis by requiring that the rulewriting
divisions engage with RSFI before the Commission begins writing rules. Further,
the SEC has hired and added a number of financial economists to the process for
economic analysis. Lastly, on the basis of interviews and our review of supporting
documents, we found that the Chief Economist was involved in the three stages of
the rulemaking process and concurred with the economic analyses in the
proposing and adopting stages of rulemakings.

The OIG makes no recommendation for this finding.




25
   The Current Guidance requires RSFI’s formal concurrence on the economic analysis for both proposing
and adopting rules. By concurring with the economic analysis, the Chief Economist asserts that the
economic ideas presented are sound and that the SEC framed the economic ideas logically. This
concurrence ensures that the economic analysis is consistent with the Current Guidance (i.e., it ensures that
the economic analysis has a consistent baseline, quantifies benefits and costs where appropriate, and
discusses alternatives to the rule). The Division responsible for a rule prepares an action memorandum to
the Commission for each proposed or final rule when a rulemaking release is circulated to the Commissioners
for their consideration. An action memorandum discusses a rulewriting division’s specific recommendations
and rationale for a rulemaking release. The rulemaking release to be considered and voted on by the
Commission is attached to the action memorandum. The concurrence language is part of the action
memorandum.
26
     The former Chairman, Mary Schapiro, approved the concurrence language for the action memorandum.
Implementation of Current Guidance on Economic Analysis                                      June 6, 2013
Report No. 516
                                                Page 15
Finding 3: The Current Guidance Includes
Recommendations from the SEC OIG and
Other Commenters
        The Commission incorporated, into its Current Guidance,
        recommendations that it received from the SEC OIG and
        other commenters.     Specifically, the Current Guidance
        addressed recommendations from the SEC OIG’s follow-up
        review of Dodd-Frank rulemaking, a GAO report on Dodd-
        Frank rulemaking, and the U.S. Court of Appeals opinion
        that vacated an SEC rule.

Recommendations in SEC OIG Report No. 499
The OIG issued Follow-Up Review of Cost-Benefit Analyses in Selected SEC
Dodd-Frank Act Rulemakings, Report No. 499, on January 27, 2012 (Report No.
499). The Report contained six recommendations; the SEC has implemented and
closed all of those recommendations. We found that the Current Guidance fully
addressed the recommendations in Report No. 499. Table 2 below summarizes
that information.

Table 2: Incorporation of SEC OIG Recommendations in the
Current Guidance
     SEC OIG Report No. 499
                                       Text of Current Guidance
        Recommendations
 1. SEC rulewriting divisions and RSFI should       To make the best use of RSFI’s expertise, economists
 consider ways for economists to provide            should be involved at the earliest stages of the
 additional input into cost-benefit analyses of     rulemaking process (e.g., before the specific preferred
 SEC rulemakings to assist in including both        regulatory course is determined) and throughout the
 quantitative and qualitative information to the    course of writing proposed and final rules. RSFI
 extent possible.                                   economists should be fully integrated members of the
                                                    rulewriting division and contribute to all elements of the
                                                    rulewriting process (p. 15).
 2. OGC, in consultation with RSFI, should          As a policy matter, where a statute directs rulemaking,
 reconsider its guidance that the SEC should        rulewriting staff should consider the overall economic
 perform economic analyses for rulemaking           impacts, including both those attributable to
 activities to the extent that the SEC exercises    Congressional mandates and those that result from an
 discretion and should consider whether a pre-      exercise of the Commission’s discretion... (p. 8).
 statute baseline should be used whenever
 possible.
 3. SEC rulemaking divisions should generally       The baseline being used should be specified, either at
 use a single, consistent baseline in the cost-     the beginning of the economic analysis section or as a
 benefit analyses of their rulemakings related      part of a general introduction to the economic issues that
 to a particular topic. The baseline being used     will be considered throughout the release. Using the
 should be specified at the beginning of the        same baseline assumptions throughout the economic
 cost-benefit analysis section. If multiple         analysis of each element of the proposed rule is
 baselines are appropriate, such as for             important (p. 8).
 evaluating alternative approaches or
 explaining the SEC’s use of discretion, they
 should also be explained and justified.


Implementation of Current Guidance on Economic Analysis                                          June 6, 2013
Report No. 516
                                                   Page 16
           SEC OIG Report No. 499
                                                                   Text of Current Guidance
             Recommendations
     4. SEC rulewriting divisions should consider        Combine the economic analysis considering costs and
     discontinuing the practice of drafting separate     benefits with consideration of the effects on efficiency,
     cost-benefit analysis and efficiency,               competition, and capital formation (p. 14).
     competition, and capital formation sections
     and instead provide a more integrated
     discussion of these issues in rule releases.
     5. The Commission should consider directing         Rule releases must include a discussion of the need for
     rulewriting divisions to (a) explicitly discuss     regulatory action and how the proposed rule will meet
     market failure as a justification for regulatory    that need. In some circumstances, there will be more
     action in the cost-benefit analysis of each rule    than one justification for a particular rulemaking.
     that is based in whole or in part on perceived      Frequently, the proposed rule will be a response to a
     market failure or (b) in the absence of market      market failure that market participants cannot solve
     failure, demonstrate a compelling social            because of collective action problems (p. 5).
     purpose that justifies regulatory action.
     6. SEC rulewriting divisions should consider
                                             Depending on the significance of the costs and benefits
     including internal costs and benefits in the
                                             of a rule that are internal to the SEC, it can be
     cost-benefit analyses of rulemakings.   appropriate to consider them in the cost-benefit analysis
                                             (p. 12).
Source: SEC OIG Report No. 499 and Current Guidance


GAO Report Recommendation
The Current Guidance references GAO Report No. 12-151, Dodd-Frank Act
Regulations: Implementation Could Benefit from Additional Analyses and
Coordination, in two places. GAO’s report stated, “To strengthen the rigor and
transparency of their regulatory analyses, we recommend that the federal financial
regulators take steps to better ensure that the specific practices in OMB’s
regulatory analysis guidance are more fully incorporated into their rulemaking
policies and consistently applied.” 27

The Current Guidance notes that although SEC is not required to follow the
guidelines for regulatory economic analysis (enumerated in several executive
orders) 28 that other executive agencies must follow, the Current Guidance “draws
on principles set forth in those orders and in the Office of Management and
Budget’s Circular A-4 (2003)....”29

U.S. Court of Appeals Opinion
In its request for the SEC OIG to review the implementation of the Current
Guidance, the Chairman of the House Oversight Committee referenced an
opinion of the U.S. Court of Appeals for the District of Columbia Circuit. See
Business Roundtable and Chamber of Commerce v. Securities and Exchange

27
  GAO Report No. 12-151, Dodd-Frank Act Regulations: Implementation Could Benefit from Additional
Analyses and Coordination (November 2011), p. 39.
28
  These executive orders include Executive Order 12866, Regulatory Planning and Review, and Executive
Order 13563, Improving Regulation and Regulatory Review.
29
     Current Guidance on Economic Analysis in SEC Rulemakings (March 2012), p. 4.
Implementation of Current Guidance on Economic Analysis                                               June 6, 2013
Report No. 516
                                                        Page 17
Commission (Business Roundtable). 30 The petitioners in Business Roundtable
challenged the Securities Exchange Act of 1934 (Exchange Act) Rule 14a-11
(Proxy Access Rule) 31 on the basis that, among other things, “the Commission
failed adequately to consider the rule’s effect upon efficiency, competition, and
capital formation, as required by Section 3(f) of the Exchange Act and Section
2(c) of the Investment Company Act of 1940....” 32 Section 3(f) of the Exchange
Act and Section 2(c) of the Investment Company Act require that whenever it is
engaged in rulemaking and “is required to consider or determine whether an
action is necessary or appropriate in the public interest, the Commission shall also
consider, in addition to the protection of investors, whether the action will promote
efficiency, competition, and capital formation.” 15 U.S.C. §§ 78c (f) and 80a-2(c).
The U.S. Court of Appeals agreed with the petitioners and vacated the rule,
finding that the SEC had “failed...adequately to assess the economic effects of a
new rule.” 33

The court agreed with the petitioners’ argument that the SEC promulgated the rule
in violation of the Administrative Procedure Act and that the SEC acted arbitrarily
and capriciously by having failed “adequately to assess the economic effect of a
new rule.” The court set forth five ways that the SEC’s analysis failed.

We reviewed the Business Roundtable decision and compared it to the Current
Guidance to determine whether the SEC addressed the court’s findings on the
SEC’s analytical failures. As shown in Table 3 below, we found that the Current
Guidance generally addressed the court’s findings and incorporated them into
guidelines to avoid analytical failures in future rulemakings.

Table 3: Incorporation of U.S. Court of Appeals Opinion in the Current
Guidance
   Excerpts from U.S. Court of
                                           Text of Current Guidance
         Appeals Opinion
 [T]he Commission inconsistently and               Frame costs and benefits neutrally and
 opportunistically framed the costs and            consistently. The release should evaluate the
 benefits of the rule…                             costs and benefits even-handedly and candidly,
                                                   acknowledging any limitations in the data or
                                                   quantifiable information (p. 14).




30
     Business Roundtable, 647 F.3d 1144 (D.C. Cir. 2011).
31
  The Proxy Access Rule required a company subject to the Exchange Act proxy rules to include in its proxy
materials the name of a person or persons nominated by a shareholder or group of shareholders to the
company’s board of directors, provided that the shareholder or group of shareholders met certain criteria.
32
     Business Roundtable, 647 F.3d at 1146.
33
     Id.
Implementation of Current Guidance on Economic Analysis                                    June 6, 2013
Report No. 516
                                                 Page 18
    Excerpts from U.S. Court of
                                                        Text of Current Guidance
         Appeals Opinion
 [The Commission] failed adequately to         Quantify expected benefits and costs to the extent
 quantify the certain costs or to explain      feasible…
 why those costs could not be quantified…
                                               Identify and discuss uncertainties underlying the
                                               estimates of benefits and costs…

                                               Explain why costs and benefits cannot be
                                               quantified (p. 12-13).
 [The Commission] neglected to support its     Support predictive judgments and clearly address
 predictive judgments…                         contrary data or predictions (p. 14).

                                               The release should also include a discussion of
                                               any existing studies or data that bear on the
                                               proposal so that the public knows what studies or
                                               data we are relying on, can comment on it, and can
                                               provide additional data relevant to the topic (p. 16).
 [The Commission] contradicted itself…         Frame costs and benefits neutrally and
                                               consistently (p. 14).
 [The Commission] failed to respond to         As part of their continuing analysis of the potential
 substantial problems raised by the            economic effects of the proposed rule, the RSFI
 commenters.                                   economists assigned to the rule should pay
                                               particular attention to any comment letters
                                               containing economic analysis and data. Where
                                               appropriate, RSFI economists should attend
                                               meetings with commenters or other third parties
                                               regarding the proposed rule, particularly in those
                                               instances when the rulewriting division expects that
                                               the outside party will provide additional data or
                                               comment upon the economic analysis or data
                                               contained in the proposing release (p. 16).

                                               As part of the development of the adopting release,
                                               the staff should prepare a high-level economic
                                               analysis (prepared by or with the assistance of
                                               RSFI economists) that addresses (1) any
                                               significant policy alternatives suggested by
                                               commenters that are not recommended for
                                               adoption; (2) other comments received relevant to
                                               the economic effects of the proposed rule and
                                               realistic alternative approaches; and (3) data
                                               gathered (p. 16).
Source: Business Roundtable, 647 F.3d 1144, and Current Guidance.


Conclusion
The Current Guidance incorporates recommendations from various commenters
on the SEC’s economic analysis in rulemakings, including those from the SEC
OIG, GAO, and a U.S. Court of Appeals opinion.

The OIG makes no recommendation for this finding.

Implementation of Current Guidance on Economic Analysis                                June 6, 2013
Report No. 516
                                             Page 19
                                                                           Appendix I


                                 Abbreviations

            Business Roundtable         Business Roundtable and
                                        Chamber of Commerce
                                        v. Securities and Exchange
                                        Commission
            CF                          Division of Corporation Finance
            Current Guidance            Current Guidance on Economic
                                        Analysis in SEC Rulemakings
            Dodd-Frank Act              Dodd-Frank Wall Street Reform
                                        and Consumer Protection Act
            Exchange Act                Securities Exchange Act of 1934
            GAO                         Government Accountability Office
            House Oversight             U. S. House of Representatives
            Committee                   Committee on Oversight and
                                        Government Reform
            IM                          Division of Investment
                                        Management
            IPA                         Intergovernmental Personnel Act
            OGC                         Office of the General Counsel
            OIG                         Office of Inspector General
            OMB                         Office of Management and Budget
            OS                          Office of the Secretary
            Ph.D.                       Doctor of Philosophy
            Proxy Access Rule           Securities Exchange Act of 1934
                                        (Exchange Act) Rule 14a-11
            RSFI                        Division of Risk, Strategy, and
                                        Financial Innovation
            SEC or Commission           U.S. Securities and Exchange
                                        Commission
            Subcommittee on             Subcommittee on TARP, Financial
            TARP                        Services and Bailouts of Public
                                        and Private Programs
            TARP                        Troubled Assets Relief Program
            TM                          Division of Trading and Markets




Implementation of Current Guidance on Economic Analysis                June 6, 2013
Report No. 516
                                         Page 20
                                                                                            Appendix II


                             Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We determined
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope. Our audit focused on the Current Guidance for economic analysis in SEC
rulemakings and on proposed, final, and interim final temporary 34 rules issued
between March 16, 2012 35 and November 30, 2012. We also reviewed the
practices and procedures for economic analysis of the rulewriting divisions, RSFI,
and OGC. Further, the OIG reviewed laws, regulations, and policies applicable to
economic analysis. We also interviewed staff of the rulewriting divisions, OGC,
and RSFI, including the Chief Economist.

Methodology. To achieve the objective of determining whether the SEC
established and implemented procedures for a methodical economic analysis
process in accordance with its Current Guidance, we asked the rulewriting
divisions, OGC and RSFI whether they had policies and procedures incorporating
that guidance. We then examined existing internal policies and procedures.
Additionally, we reviewed the Current Guidance and developed a standard
checklist to obtain an understanding of the Commission’s process for economic
analysis. Further, we interviewed the Commission staff to determine what
processes they had for preparing economic analyses and to assess whether their
practices align with the principles of the Current Guidance.

To meet the objective of determining whether the Commission developed and uses
procedures to improve the process for economic analysis, we verified that the
Commission issued the Current Guidance, which incorporates best practices for
conducting economic analyses and provides a broad guide on what an economic
analysis should include, such as a baseline, alternative approaches, and
discussions on costs and benefits of a rule. We also assessed whether the SEC
hired additional economists with financial industry knowledge by reviewing
resumes of the hired employees and comparing their experience to job
descriptions and vacancy announcements. The OIG also interviewed economists
working on the rulemaking initiatives to determine their knowledge about economic
analysis.


34
  The SEC issues interim final temporary rules when the requirement for a rule is urgent and the Commission
cannot follow the normal course of rulemaking process such as collecting comments from the public.
35
     OGC and RSFI issued the Current Guidance on March 16, 2012.
Implementation of Current Guidance on Economic Analysis                                      June 6, 2013
Report No. 516
                                               Page 21
                                                                                               Appendix II


Further, we met with RSFI staff and the Chief Economist to obtain an
understanding about the Chief Economist’s review and concurrence process for
economic analyses. We also reviewed action memoranda and emails from RSFI
to rulewriting divisions for a sample of nine rules 36 to determine if the rulewriting
divisions obtained the Chief Economist’s concurrence on the economic analysis
before transmitting the rule to the Commissioners for a vote on the rule.

Lastly, we reviewed emails between rulewriting divisions and RSFI, comments
RSFI made on draft economic analyses, term sheets, internal memoranda RSFI
prepared for rules, etc., and met with RSFI staff and rulewriting divisions to discuss
the coordination between them for conducting economic analysis.

To meet the objective of determining whether the Current Guidance incorporates
the SEC OIG’s and other commenters’ recommendations issued to the SEC on
rulemaking, we reviewed recommendations from SEC OIG audit reports and GAO
audit reports on rulemaking, comments on the Current Guidance from the
Commissioners, and a legal opinion on SEC rulemaking. We analyzed the
recommendations and comments to determine whether the Commission
incorporated them into the Current Guidance.

Internal Controls. For our audit, we assessed the Commission’s internal controls
significant to our objectives on the basis of OMB Circular A-123, Management’s
Responsibility for Internal Control. That circular states, “Management is
responsible for developing and maintaining internal control activities that comply
with the following standards…control environment, risk assessment, control
activities, information and communication, and monitoring.” The internal controls
that we assessed included: 1) the Chief Economist’s review and concurrence
process for economic analysis; 2) OGC’s review of rulemakings to ensure that the
Commission addressed legal requirements; and 3) the rulewriting division’s internal
review process, such as the preparation of the economic analysis by staff
attorneys, and senior management’s (associate directors, deputy directors, and
directors) review of the economic analysis.

Information Systems Controls. We used computer-processed data from the
Office of Human Resources to determine the number of economists in RSFI as of
March 6, 2013. RSFI verified that the number of economists as of March 6, 2013,
was accurate. We did not assess the system that generated the computer-
processed data.

Judgmental Sampling. To identify our sample, we used judgmental sampling due
to the small universe of rules in our scope. Between March 16, 2012, and
November 30, 2012, the Commission released 23 rules—5 proposed rules, 16 final

36
  Two of nine rules were issued prior to the implementation of the formal concurrence process. The action
memoranda for these rules stated that the rulewriting divisions consulted with RSFI, instead of including the
standard concurrence language. Further, there were no emails from RSFI to rulewriting divisions, conveying
the Chief Economist’s formal concurrence with the rules.
Implementation of Current Guidance on Economic Analysis                                         June 6, 2013
Report No. 516
                                                Page 22
                                                                                Appendix II


rules and 2 interim final temporary rules. Out of the 23 rules, 8 rules did not
require an economic analysis because they reopened a period for comment,
corrected a typographical error, or adopted an updated Electronic Data Gathering,
Analysis, and Retrieval filer manual. Out of the 15 rules that required an economic
analysis, the OIG selected 9 rules consisting of 3 proposing rules, 5 final rules and
1 interim final temporary rule for review, on the basis of its judgment. We ensured
that all three rulewriting divisions—TM, CF, and IM—were represented in our
sample and that the nine samples covered different areas of the securities laws.
The OIG reviewed the rules to assess involvement of RSFI and to determine
whether the Chief Economist concurred in the economic analyses. Table 4 below
identifies the nine rules that the OIG reviewed.

Table 4: Rules the OIG Reviewed
       Rule      Rule Issue Date     Responsible      Stage             Name of Rule
      Release                        Rulewriting
     Number                            Division
 1   34-66868   April 27, 2012           TM         Adopting    Further Definition of “Swap
                                                                Dealer,” “Security-Based
                                                                Swap Dealer,” “Major Swap
                                                                Participant,” “Major Security-
                                                                Based Swap Participant” and
                                                                “Eligible Contract Participant”
 2   34-67405   July 11, 2012            TM         Temporary   Extension of Interim Final
                                                                Temporary Rule on Retail
                                                                Foreign Exchange
                                                                Transactions
 3   34-67457   July 18, 2012            TM         Adopting    Consolidated Audit Trail
 4   34-67717   August 22, 2012          CF         Adopting    Disclosure of Payments by
                                                                Resource Extraction Issuers
 5   33-9354    August 29, 2012           CF        Proposing   Eliminating the Prohibition
                                                                Against General Solicitation
                                                                and General Advertising in
                                                                Rule 506 and Rule 144A
                                                                Offerings
 6   IA-3483    October 9, 2012           IM        Proposing   Temporary Rule Regarding
                                                                Principal Trades with Certain
                                                                Advisory Clients
 7   34-68071   October 18, 2012         TM         Proposing   Capital, Margin, and
                                                                Segregation Requirements for
                                                                Security-Based Swap Dealers
                                                                and Major Security-Based
                                                                Swap Participants and Capital
                                                                Requirements for Broker-
                                                                Dealers
 8   34-68080   October 22, 2012         TM         Adopting    Clearing Agency Standards
 9   IC-30268   November 19, 2012        IM         Adopting    Purchase of Certain Debt
                                                                Securities by Business and
                                                                Industrial Development
                                                                Companies Relying on an
                                                                Investment Company Act
                                                                Exemption
Source: OIG Generated.

Implementation of Current Guidance on Economic Analysis                          June 6, 2013
Report No. 516
                                        Page 23
                                                                   Appendix II


Prior Audit Coverage. The SEC OIG conducted two reviews of the SEC’s
economic analysis in rulemaking.

   •   Report of Review of Economic Analyses Performed by the Securities and
       Exchange Commission in Connection with Dodd-Frank Act Rulemakings,
       SEC OIG, June 13, 2011.

   •   Follow-Up Review of Cost-Benefit Analyses in Selected Dodd-Frank Act
       Rulemakings, Report No. 499, January 27, 2012.

We did not make any recommendations in the June 13, 2011, report. In Report
No. 499, the OIG made six recommendations that were closed in June 2012.
During this audit, we verified that the Commission fully implemented the
recommendations.




Implementation of Current Guidance on Economic Analysis             June 6, 2013
Report No. 516
                                        Page 24
                                                                       Appendix III


                                       Criteria
Administrative Procedure Act of 1946, 5 U.S.C. §§ 501 et. seq. Provides
minimal procedural standards that Federal administrative agencies must follow.
With respect to rulemaking, the APA requires agencies to give the public advance
notice of the contents of a proposed rule and to offer members of the public an
opportunity to express their views on the proposed rule. The APA also provides
that courts may set aside any rule found to be “arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.”

Current Guidance on Economic Analysis in SEC Rulemakings. Provides
guidance on economic analysis and broadly outlines best practices in conducting
economic analysis. Discusses four requirements of a good regulatory economic
analysis and other factors necessary for a comprehensive economic analysis.

Dodd-Frank Wall Street Reform and Consumer Protection Act, Public Law
No. 111-203, July 21, 2010. Reformed the financial regulatory system, including
how financial regulatory agencies such as the SEC operate, and mandated that the
SEC undertake a significant number of studies and rulemakings, including
regulatory initiatives addressing derivatives; asset securitization; credit rating
agencies; hedge funds, private equity funds, and venture capital funds; municipal
securities; clearing agencies; and corporate governance and executive
compensation.

Jumpstart Our Business Startups Act, Public Law No. 112-106, April 5, 2012.
Requires the SEC to write rules and issue studies on capital formation, disclosure,
and registration requirements.

Office of the General Counsel, SEC, Compliance Handbook, revised October
1, 1999. Provides guidance applicable to SEC rulemaking and includes guidance
specific to developing cost-benefit analyses.

Office of Management and Budget (OMB) Circular A-4, Regulatory Analysis,
September 17, 2003. Provides OMB’s guidance to Federal agencies on
developing cost-benefit analyses required under Executive Order 12866 and
related authorities.

OMB Circular A-123, Management’s Responsibility for Internal Control.
Establishes that management has a fundamental responsibility to develop and
maintain effective internal controls.

Paperwork Reduction Act of 1980, 44 U.S.C. § 3501, et seq. Gave authority
over the collection of certain information to OMB and mandated that Federal
agencies obtain an OMB control number before promulgating a form that will
impose an information collection burden on the general public. Also required

Implementation of Current Guidance on Economic Analysis                 June 6, 2013
Report No. 516
                                        Page 25
                                                                        Appendix III


agencies to solicit and review public comments on the information collection
requirements of proposed rules, to evaluate the need for information collection,
and to provide an estimate of the information collection burden.

Regulatory Flexibility Act of 1980, 5 U.S.C. § 601, et seq. Requires agencies to
consider the needs of small entities in evaluating proposed and final rules for all
rules subject to notice and comment under the APA and to describe the impact of
proposed and final rules on small entities, unless the agency head certifies that the
rule will not have a significant economic impact on a substantial number of small
entities.

Section 23(a)(2) of the Securities Exchange Act of 1934, 15 U.S.C. § 78w(a)(2).
Requires the SEC to consider the effect on competition of any rule promulgated
under the act.

Securities Act of 1933, Securities Exchange Act of 1934, Investment
Company Act of 1940, and Investment Advisers Act of 1940. Contain
provisions that require the Commission, when it is engaged in rulemaking and is
required to consider or determine whether an action is necessary or appropriate in
the public interest, to consider, in addition to the protection of investors, whether
the action will promote efficiency, competition and capital formation.

U.S. Court of Appeals Opinion, Business Roundtable v. SEC, 647 F.3d 1144
(D.C. Cir. 2011). The petitioners in Business Roundtable challenged the
Exchange Act Rule 14a-11 (Proxy Access Rule) on the basis that, among other
things, the Commission failed adequately to consider the rule’s effect upon
efficiency, competition, and capital formation, as required by Section 3(f) of the
Exchange Act and Section 2(c) of the Investment Company Act of 1940, which
require that whenever it is engaged in rulemaking and the Commission is required
to consider or determine whether an action is necessary or appropriate in the
public interest. The U.S. Court of Appeals agreed with the petitioners and vacated
the rule, finding that the SEC had failed adequately to assess the economic effects
of a new rule.




Implementation of Current Guidance on Economic Analysis                   June 6, 2013
Report No. 516
                                        Page 26
                                                                     Appendix IV


                              Recommendation

Recommendation 1:

The Chairman’s Office, in coordination with the Office of the General Counsel
(OGC) and the Division of Risk, Strategy, and Financial Innovation (RSFI), should
issue–to SEC rulewriting divisions, RSFI, and OGC–written operating procedures
for economic analysis that implement the Current Guidance on Economic Analysis
in SEC Rulemakings.




Implementation of Current Guidance on Economic Analysis                June 6, 2013
Report No. 516
                                        Page 27
                                                          Appendix V




                        Management Comments




Implementation of Current Guidance on Economic Analysis    June 6, 2013
Report No. 516

                                        Page 28
                                                          Appendix V




Implementation of Current Guidance on Economic Analysis    June 6, 2013
Report No. 516

                                        Page 29
                         Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to request
an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General for Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




                   SEC OIG Hotline
      To report fraud, waste, abuse, and mismanagement at the
      SEC, contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      http://www.sec-oig.gov/
